          DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                                 Office of Inspector General



                                                                                                  Washington, D.C. 20201



                                                     APR 08 2010 



TO:               Charlene Frizzera
                  Acting Administrator
                  Centers for Medicare & Medicaid Services


FROM:             Stuart Wright /S/
                  Deputy Inspector General
                    for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Medicare Paymentsfor Medical Equipment and Supply
           Claims With Identical Referring Physician and Supplier National Provider
           Identifiers,OEI-04-1O-00110


This memorandum report provides information on Medicare payments for medical equipment
and supply claims with identical national provider identifiers (NPI) for the referring physician
and the supplier that provided the equipment or supplies. l The Centers for Medicare & Medicaid
Services (CMS) began requiring suppliers to include NPls for the supplier and the referring
physician on Medicare claims on May 23,2008. 2 However, CMS instituted a temporary
provision allowing suppliers to use their own NPls in the field required for the referring
physician NPI if they cannot obtain it. 3 , 4 We identified payments for claims for which suppliers
used their own NPls in place of the referring physician NPI from the date the requirement went
into effect (May 23,2008) through September 30,2009. This review is a followup to a February
2009 Office of Inspector General (OIG) report that noted that the temporary provision represents
a claims-processing vulnerability and recommended that CMS determine the earliest date to end




1 The referring physician is the person who ordered the medical equipmentand/or supplies. "Referring physician" 

includes any practitioner who is eligible to order medical equipment and supplies for Medicare beneficiaries, 

including physician assistants and nurse practitioners. 

2 According to the fmal rule at 69 Fed. Reg. 3434 (Jan. 23,2004), May 23,2007, is the compliance deadline. 

However, eMS issued guidance stating that, through May 23,2008, eMS will not impose penalties on covered 

entities, including suppliers, if they act in good faith to come into compliance and implement contingency plans. 

eMS Release, Guidance on Compliance with HIPAA National Provider Identifier (NPI) Rule After the 

May 23,2007, Implementation Deadline, April 2, 2007. 

3 eMS, Medicare Program Integrity Manual, ch. 14, § 14.5. Accessed at 

http://w\yF.cms.hhs. gov/manuals/downloads/pim83cI4.pdf on February II, 2010. 

4 eMS, The NPI is here. The NPI is now. Are you using it? June 2, 2008. Accessed at 

http://www.cms.hhs. gov/Nat.ion~J.P..n!...{.~4~11!StandlDownloads/6-June08Messa ge.pdf on June 24, 2008. 




oEI -04-10-0011 0              Medicare Payments for Claims With Identical Referring Physician and Supplier NPls
Page 2 – Charlene Frizzera


the provision while maintaining beneficiary access to services. 5 On January 3, 2011, CMS
intends to implement changes to its claims-processing system that will end the temporary
provision. 6 However, the implementation date of these changes has been postponed twice. 7 As
of April 2010, nearly 2 years after the temporary provision was effective, suppliers are still able
to submit claims without the referring physician’s NPI. 8

Medicare pays for medical equipment and supplies only when the items are ordered by eligible
physicians and meet coverage requirements. However, as a result of CMS’s temporary
provision, we found that Medicare paid a total of $87 million for medical equipment and supply
claims with identical referring physician and supplier NPIs over approximately 16 months.
Although these payments were permissible under the temporary provision, they represent a
potential vulnerability because CMS’s claims-processing systems did not verify that the
equipment and/or supplies associated with these payments were ordered by an eligible physician
as required.

Medicare payments for medical equipment and supply claims with identical referring physician
and supplier NPIs were concentrated in certain Healthcare Common Procedure Coding System
(HCPCS) and geographic locations. Ten HCPCS codes accounted for half of the $87 million
that we identified, although Medicare paid for this type of claim under approximately
1,200 HCPCS codes during the period of our review. We also found that 10 counties represented
19 percent of the Medicare payments that we identified nationwide. In contrast, these
10 counties represented only 9 percent of Medicare payments for all medical equipment and
supplies provided during the period of our review. Three of the 10 counties are among the
7 areas that the Health Care Fraud Prevention and Enforcement Action Team (HEAT) has
identified as areas of significant Medicare fraud.

Additionally, 26 percent of suppliers that received Medicare payments for claims with identical
referring physician and supplier NPIs were paid by Medicare for this type of claim almost
exclusively. These suppliers accounted for almost half (48 percent) of the Medicare payments
we identified. Fourteen percent of suppliers that received Medicare payments for claims with
identical referring physician and supplier NPIs submitted this type of claim in all six quarters we


5 Department of Health & Human Services (HHS) OIG, Medicare Payments in 2007 for Medical Equipment and
Supply Claims With Invalid or Inactive Referring Physician Identifiers, OEI-04-08-00470, February 2009.
Although that report focused on claims submitted in 2007, it discussed the transition to NPIs, including the
May 2008 provision allowing suppliers to use their own NPIs.
6 CMS, Transmittal 643, Change Request 6421, February 26, 2010.
7 CMS, Active Physician Regulatory Issues Team (PRIT) Issues, CR 6421, Orders for Medicare Services by

Physicians Not Enrolled in PECOS, Sept. 28, 2009, modified Feb. 23, 2010. Accessed at
https://www.cms.hhs.gov/PRIT/ on March 11, 2010. The implementation was originally planned for
January 4, 2010, but was postponed until April 5, 2010, and again until the currently planned date, January 3, 2011.
8 Ibid. Testimony of Herb B. Kuhn, CMS Deputy Administrator, on Medicare Payments for Claims With

Identification Numbers of Dead Doctors Before the Senate Committee on Homeland Security and Governmental
Affairs Permanent Subcommittee on Investigations, July 9, 2008. Mr. Kuhn stated that suppliers would be allowed
to use their own NPIs for a short period of time, but did not indicate a date the provision would be revoked.

OEI-04-10-00110                Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
Page 3 – Charlene Frizzera


reviewed. These suppliers accounted for more than half (53 percent) of the Medicare payments
we identified. Medicare payments for claims with identical referring physician and supplier
NPIs declined over the first 7 months the temporary provision was effective, but generally
increased thereafter.

BACKGROUND

Medicare beneficiaries are eligible to receive medical equipment and supplies deemed medically
necessary by a physician under Medicare Part B coverage. From the date suppliers were
required to include their NPIs (May 23, 2008) through September 30, 2009, Medicare paid
$15 billion for all medical equipment and supply claims.

HEAT Initiative and Strike Force Cities
In May 2009, HHS and the Department of Justice (DOJ) created HEAT to fight fraud, waste, and
abuse in Medicare. The HEAT initiative includes Strike Force Teams operating in cities with
significant Medicare fraud. The Strike Force Teams focus on fraudulent activities by medical
equipment suppliers and other health care providers in cities including Miami, Los Angeles,
Houston, and Detroit. Types of fraud committed by these suppliers include billing for medical
equipment and supplies that were not provided or were medically unnecessary and falsifying
physician orders for medical equipment. 9

Medicare Claims Processing and Provider Identifiers
Medical equipment suppliers are reimbursed for items that they provide to Medicare
beneficiaries by submitting claims to the CMS contractors servicing their geographic areas.
Historically, suppliers and other providers identified themselves on claims using a legacy
provider identification number. 10, 11 Medicare also required suppliers to provide the UPIN of the
referring physician on claims. 12 Medicare payments for medical equipment and supplies are
authorized only when the items are ordered by eligible physicians and meet coverage
requirements.

The Administrative Simplification provisions of the Health Insurance Portability and
Accountability Act of 1996 required the adoption of a standard unique health identifier, and
CMS adopted the NPI as this new standard. 13 Physicians and suppliers were required to apply



9 Ibid.
10 CMS, MLN Matters Number MM4023. Accessed at
http://www.cms.hhs.gov/MLNMattersArticles/downloads/mm4023.pdf on March 12, 2010.
11 Legacy provider identification numbers include a variety of system identifiers including Online Survey

Certification and Reporting system numbers, National Supplier Clearinghouse (NSC) numbers, Provider
Identification Numbers, and Unique Physician Identification Numbers (UPIN).
12 CMS, Medicare Program Integrity Manual, ch. 14, §§ 14.6 and 14.6.1 (prior to Transmittal 263, Change Request

6036 (July 25, 2008)).
13 69 Fed. Reg. 3434 (Jan. 23, 2004).


OEI-04-10-00110               Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
Page 4 – Charlene Frizzera


for NPIs from CMS to bill Medicare. CMS began to issue NPIs in May 2005 and began
accepting them on claims in January 2006. 14

As of May 23, 2008, CMS requires suppliers to exclusively use NPIs on Medicare claims. 15 In
addition to their own NPIs, suppliers are required to provide the NPI of the referring physician.
Some types of medical equipment and supplies may be provided by the referring physician. In
these instances, the referring physician and supplier NPIs may be identical on the claim.
However, CMS has stated that these instances are rare. 16 Additionally, CMS’s claims-
processing systems do not identify such cases.

When these requirements went into effect on May 23, 2008, CMS noted that a large number of
claims were rejected because suppliers had not submitted the referring physicians’ NPIs. In
response, CMS instituted a temporary provision that allows suppliers to use their own NPIs if,
after reasonable effort, they cannot obtain the referring physicians’ NPI. 17, 18

Provider identifiers are valuable program integrity safeguards. Medicare relies on physicians
and other health care providers to ensure that beneficiaries receive medically necessary medical
equipment and/or supplies. By including the referring physician NPI on a claim, the supplier
indicates that a physician has ordered the equipment and/or supplies for the beneficiary. The
referring physician NPI also enables CMS to determine who ordered the equipment and/or
supplies as part of any payment reviews and investigations. The success of these program
integrity activities may be limited without a referring physician NPI.

CMS plans to implement claims-processing system changes to require medical equipment
suppliers to bill for items or services only when they are ordered by an eligible physician who is
enrolled in Medicare. 19 As part of these claims-processing changes, CMS will end the
temporary provision allowing suppliers to enter their own NPI into the referring physician field if
the supplier is unable to obtain the referring physician NPIs. On January 3, 2011, CMS intends
to implement changes to its claims-processing system that will end the temporary provision. 20




14
   CMS, MLN Matters Number MM4023, loc. cit. From January 3 through October 1, 2006, CMS accepted NPIs but
also required an existing legacy Medicare number. Beginning October 2, 2006, CMS accepted an NPI and/or an
existing legacy Medicare number.
15 CMS, MLN Matters Number MM5595, April 24, 2007.
16 CMS stated that “[t]here are few, if any, situations in which a referring physician would personally furnish DME

and supplies to a patient, because doing so would require that the physician himself or herself be enrolled in
Medicare as a DME supplier and personally perform all of the duties of a supplier as set forth in the supplier
standards….” 72 Fed. Reg. 51012, 51019 (Sep. 5, 2007).
17 CMS, The NPI is here. The NPI is now. Are you using it?, loc. cit.
18 CMS, Medicare Program Integrity Manual, ch. 14, § 14.5. Accessed at

http://www.cms.hhs.gov/manuals/downloads/pim83c14.pdf on February 11, 2010.
19 CMS, Transmittal 643, Change Request 6421, loc. cit.
20 Ibid.


OEI-04-10-00110               Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
Page 5 – Charlene Frizzera


Related Office of Inspector General Work
OIG found that Medicare paid over $34 million in 2007 for claims for medical equipment and
supplies that had either invalid or inactive referring physician identifiers. 21 OIG recommended
that CMS determine the earliest date to end the temporary provision that allows suppliers to
submit claims without referring physicians’ NPIs while maintaining beneficiary access to
services. CMS did not specifically address this recommendation in its comments on the report.

METHODOLOGY

Scope
We determined the extent to which Medicare paid medical equipment and supply claims
received between May 23, 2008, and September 30, 2009, with identical referring physician and
supplier NPIs.

Data Collection and Analysis
We obtained 100 percent of medical equipment and supply claims that CMS received from
May 23, 2008, through September 30, 2009, from CMS’s National Claims History File. We also
used the National Claims History File to identify claims for all medical equipment and supplies
during the period of our review for our analysis of geographic location and supplier payments.

We identified all claims that had the same NPI in both the supplier and referring physician fields.
We calculated the total Medicare payments for the identified claims and determined the
10 HCPCS codes with the highest Medicare payments for these claims. 22 We also analyzed
monthly trends in these payments during our review period.

We identified the 10 counties, based on supplier location, with the highest payments for the
identified claims. We used the NSC database to identify suppliers’ ZIP Codes. Next, we
matched the suppliers’ ZIP Codes to the corresponding counties using SAS computer software.
We also calculated Medicare payments for all medical equipment and supply claims in these
counties. We then compared the percentage of identified payments to the percentage of all
medical equipment and supply payments in these counties.

We identified the suppliers that received the highest payments for these claims. We also
determined how frequently suppliers were paid for claims with identical referring physician and
supplier NPIs. 23 Finally, we compared suppliers’ payments for the identified claims to the
Medicare payments that they received for all medical equipment and supply claims during the


21 OEI-04-08-00470, loc. cit.
22 By “Medicare payment,” we refer to the Medicare-allowed amount. Medicare reimburses the supplier 80 percent
of the allowed amount and the beneficiary is responsible for paying the remaining 20 percent.
23 We divided the period under review (May 23, 2008, to September 30, 2009) into six periods. The first began May

23, 2008, and ended August 31, 2008. The next four periods occurred in the subsequent, consecutive 3-month
increments from September 1, 2008, to August 31, 2009. The final period was September 1 to September 30, 2009.
We refer to these periods as quarters.

OEI-04-10-00110               Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
Page 6 – Charlene Frizzera


review period. For these supplier-level analyses, we removed claims for which no identifying
information for the suppliers was available. 24

Limitations
We did not determine whether the supplier may also have been the referring physician for any of
the claims we identified with identical referring physician and supplier NPIs.

Standards
This inspection was conducted in accordance with the Quality Standards for Inspections
approved by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Medicare paid $87 million for medical equipment and supply claims with identical
referring physician and supplier NPIs between May 23, 2008, and September 30, 2009
Of the $87 million Medicare paid for these claims, half ($43 million) corresponds to 10 of the
approximately 1,200 HCPCS codes under which Medicare paid for this type of claim during the
period of our review. Table 1, on the following page, presents these 10 HCPCS codes and the
corresponding Medicare payments, as well as each code’s percentage of all payments for claims
with identical referring physician and supplier NPIs during the period of our review.




24Suppliers of the claims we removed (1) used a generic NPI placeholder (9999999992) and (2) were not in the
National Supplier Clearinghouse database. Medicare paid $3.4 million for the removed claims.

OEI-04-10-00110               Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
        Page 7 – Charlene Frizzera


Table 1: Top 10 HCPCS Codes for Medicare Payments With Identical Referring Physician
and Supplier NPIs

                                                                                                                    Percentage of Total
                                                                                    Medicare Payments               Medicare Payments
                                                                                          With Identical                  With Identical
 HCPCS                                                                              Referring Physician             Referring Physician
 Code                                                           Description          and Supplier NPIs               and Supplier NPIs*
 E1390                                               Oxygen concentrator                         $8,853,321                              10%
                  Diabetic shoe insert including fitting and custom
 A5500                                                   preparation                             $8,010,672                                9%
                   Diabetic shoe insert (prefabricated) molded for
 A5512                                        total contact with foot                            $5,980,864                                7%
                  Diabetic shoe insert (custom fabricated) molded
 A5513                                    for total contact with foot                            $4,923,674                                6%
 V2020                               Frame purchase for vision lenses                            $3,727,351                                4%
 K0823             Standard power wheelchair with captain's chair                                $3,427,307                                4%
 V2203                      Spherocylinder bifocals for vision lenses                            $2,954,644                                3%
 L4360                        Pneumatic, prefabricated walking boot                              $2,115,382                                2%
 V2200                                Sphere bifocals for vision lenses                          $1,597,861                                2%
 L8030                            Breast prosthesis, silicone or equal                           $1,498,309                                2%
     Total                                                                                     $43,089,385                               50%
 * Column does not sum to total because of rounding.
 Source: 100 percent of medical equipment and supply claims from the National Claims History File from May 23, 2008, through September 30, 2009.


        Oxygen concentrators (E1390) accounted for the greatest percentage of payments for claims with
        identical referring physician and supplier NPIs (10 percent). Diabetic shoe inserts (HCPCS
        codes A5500, A5512, and A5513) accounted for 22 percent of payments for claims with
        identical referring physician and supplier NPIs. Vision lenses (HCPCS codes V2020, V2203,
        and V2200) accounted for 9 percent of payments for these claims.

        The highest amount a supplier received for claims with identical referring physician and supplier
        NPIs was $1.6 million and the average was $6,358. Nine suppliers, none of which appears to be
        a large, chain-based supplier, received over $500,000 each. The supplier with the third-highest
        Medicare payments for claims with identical referring physician and supplier NPIs
        ($853,000) was indicted for allegedly conspiring, from March 2007 through March 2009, to
        submit approximately $3.9 million in false claims to Medicare for medical equipment and
        supplies, including power wheelchairs, wheelchair accessories, and motorized scooters. 25 This
        supplier is alleged to have billed Medicare for power wheelchairs and accessories for
        beneficiaries who did not need them.



        25 Medicare Fraud Strike Force, Case Summaries for Indictments Unsealed on July 29, 2009. Accessed at
        http://www.stopmedicarefraud.gov/casesummaries072909.pdf on December 31, 2009.

        OEI-04-10-00110                        Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
Page 8 – Charlene Frizzera


Ten counties represented 19 percent of Medicare payments for medical equipment and
supply claims with identical referring physician and supplier NPIs
Ten counties represented 19 percent of the Medicare payments that we identified nationwide. In
contrast, these 10 counties represented only 9 percent of Medicare payments for all medical
equipment and supplies provided during the period of our review. Medicare paid over
$850,000 in each of these counties for medical equipment and supply claims with identical
referring physician and supplier NPIs.

Three of the 10 counties include cities that HEAT has identified as areas of significant Medicare
fraud and in which Strike Force Teams have been set up to combat fraud (Los Angeles, Houston,
and Detroit). Los Angeles County accounted for 6 percent of these payments during our review
period, but less than 3 percent of all medical equipment payments.

Twenty-six percent of suppliers that received Medicare payments for claims with identical
referring physician and supplier NPIs were paid by Medicare for this type of claim almost
exclusively
Over 13,000 suppliers were paid for at least one claim with identical referring physician and
supplier NPIs during the period of our review. Twenty-six percent (over 3,500) of these
suppliers were paid for this type of claim at least 95 percent of the time. That is, less than
5 percent of the claims for which Medicare paid these suppliers had referring physician NPIs that
differed from the supplier NPIs. These suppliers accounted for 48 percent ($40 million) of all
Medicare payments for claims with identical referring physician and supplier NPIs during the
period of our review.

Of the nine suppliers that received over $500,000 each for claims with identical referring
physician and supplier NPIs, five were paid for this type of claim at least 99 percent of the time.
Medicare payments to these five suppliers totaled over $5 million. Overall, 60 percent of all
Medicare payments received by the top nine suppliers were for claims with identical referring
physician and supplier NPIs.

Fourteen percent of suppliers that received Medicare payments for claims with identical
referring physician and supplier NPIs were paid for this type of claim in all six quarters we
reviewed
Fourteen percent of suppliers were paid for claims with identical referring physician and supplier
NPIs at least once in each of the six quarters from the date the temporary provision was effective,
through September 2009. 26 These suppliers accounted for 53 percent ($44 million) of all
Medicare payments for this type of claim during the period of our review.

Approximately 41 percent of suppliers that received Medicare payments for claims with identical
referring physician and supplier NPIs were paid for this type of claim in at least three of the six



26   The sixth quarter is shorter (September 1 to September 30, 2009) than the first five complete quarters.

OEI-04-10-00110                   Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
         Page 9 – Charlene Frizzera


         quarters we reviewed. These suppliers accounted for 90 percent ($75 million) of all Medicare
         payments for this type of claim during the period of our review.

         Medicare payments for claims with identical referring physician and supplier NPIs
         declined over the first 7 months the temporary provision was effective, but generally
         increased thereafter
         Figure 1 presents the monthly distribution of Medicare payments for equipment and supply
         claims with identical referring physician and supplier NPIs.


         Figure 1:            $10.0
        Medicare
                               $9.0 $8.6 $8.3
  Payments from
   May 23, 2008,               $8.0
                                                     $7.2
          through              $7.0                         $6.6 $6.5
  September 30,
                               $6.0                                                                                      $5.4 $5.2 $5.3
2009, for Medical                                                        $5.2 $5.0                          $5.0 $5.0
  Equipment and                $5.0                                                                  $4.6
   Supply Claims               $4.0                                                           $3.7
                                                                                                                                             $3.2
   With Identical
                               $3.0
        Referring
                                                                                       $1.9
   Physician and               $2.0
Supplier NPIs (in
                               $1.0
         millions)
                               $0.0
                                                  8

                                      nu 0 8



                                     M -0 9




                                                  9
                                     ct -08

                                   ve r- 08




                                       ua 9




                                                  9
                                        Ju *




                                       Ap 9

                                       M 9
                                   Au -0 8




                                                09
                                       Ju 9
                                     em 08




                                     em 09
                                   ce r-0
                                                8




                                               -0




                                             r -0
                                                0




                                               -0
                                               -0

                                               -0
                                            -0




                                             r-

                                 Fe ry-




                                           ly-
                                            t-




                                            t-
                                           ry




                                          ne
                                             r
                                           ly




                                          ch

                                           ril

                                          ay
                               De be

                                         be
                                         be

                                          e




                                         be
                                        ne




                                         us




                               Se gus
                                        Ju
                                       ob




                                         a



                                       ar
                                       m

                                      m
                                       g
                                     Ju




                                    br




                                   Au
                                  Ja
                                  O
                                  pt




                                  pt
                              d




                                No
                           an




                               Se
                         ay
                       M




                      * May 23, 2008, through June 30, 2008.
                      Source: 100 percent of medical equipment and supply claims from the National Claims History File from May 23, 2008, through
                      September 30, 2009.


         Medicare payments for this type of claim declined from the time the temporary provision was
         effective until January 2009. However, payments generally increased thereafter until
         September 2009. 27 Overall, except for January and September 2009, Medicare paid at least
         $3.7 million each month for claims with identical referring physician and supplier NPIs. In
         May 2009, a year after the provision went into effect, Medicare paid $5 million for this type of
         claim.



         27 The final date to submit claims for medical equipment and supplies that were provided during our review period is
         September 30, 2010. We analyzed claims CMS had processed as of November 2009. Therefore, the population of
         claims we analyzed may not include all medical equipment and supplies provided during the period of our review.

         OEI-04-10-00110                    Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
Page 10 – Charlene Frizzera


CONCLUSION

This review is a followup to a February 2009 OIG report in which we noted that the temporary
provision to allow suppliers to use their own NPIs in place of the referring physician’s NPI
represents a claims-processing vulnerability. 28 We recommended in that report that CMS
determine the earliest date to end the temporary provision while maintaining beneficiary access
to services. Although CMS intends to end the temporary provision in January 2011, the
implementation date of these changes has been postponed twice. As of April 2010, nearly 2
years after the temporary provision was effective, suppliers are still able to submit claims
without the referring physician’s NPI. The $87 million that Medicare paid for medical
equipment and supply claims with identical referring physician and supplier NPIs was
permissible under this temporary provision. However, CMS’s claims-processing systems did not
verify that the equipment and/or supplies associated with these payments were ordered by an
eligible physician, including whether the referring physicians may have supplied the medical
equipment. Therefore, we continue to believe that the provision is a program vulnerability and
that CMS should end it at the earliest date possible while maintaining beneficiary access to
services. We will forward information on suppliers that submitted claims with identical referring
physician and supplier NPIs to CMS under separate cover.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-04-10-00110 in all correspondence.




28   OEI-04-08-00470, loc. cit.

OEI-04-10-00110                   Medicare Payments for Claims With Identical Referring Physician and Supplier NPIs
